                                                                                 Federal Register / Vol. 76, No. 67 / Thursday, April 7, 2011 / Notices                                                     19655

                                                 DEPARTMENT OF HEALTH AND                                address ONLY: Centers for Medicare &                   SUPPLEMENTARY INFORMATION:
                                                 HUMAN SERVICES                                          Medicaid Services, Department of                          Inspection of Public Comments: All
                                                                                                         Health and Human Services, Attention:                  comments received before the close of
                                                 Centers for Medicare & Medicaid                         CMS–1345–NC2, P.O. Box 8013,                           the comment period are available for
                                                 Services                                                Baltimore, MD 21244–8013.                              viewing by the public, including any
                                                 [CMS–1345–NC2]                                             Please allow sufficient time for mailed             personally identifiable or confidential
                                                                                                         comments to be received before the                     business information that is included in
                                                 Office of the Inspector General                         close of the comment period.                           a comment. We post all comments
                                                                                                            • By express or overnight mail. You                 received before the close of the
                                                 RIN 0938–ZB05                                                                                                  comment period on the following Web
                                                                                                         may send written comments to the
                                                                                                         following address ONLY: Centers for                    site as soon as possible after they have
                                                 Medicare Program; Waiver Designs in
                                                                                                         Medicare & Medicaid Services,                          been received: http://
                                                 Connection With the Medicare Shared
                                                                                                         Department of Health and Human                         www.regulations.gov. Follow the search
                                                 Savings Program and the Innovation
                                                                                                         Services, Attention: CMS–1345–NC2,                     instructions on that Web site to view
                                                 Center
                                                                                                         Mail Stop C4–26–05, 7500 Security                      public comments.
                                                 AGENCY: Centers for Medicare &                          Boulevard, Baltimore, MD 21244–1850.                      Comments received timely will also
                                                 Medicaid Services (CMS) and Office of                      • By hand or courier. If you prefer,                be available for public inspection as
                                                 the Inspector General (OIG), HHS.                       you may deliver (by hand or courier)                   they are received, generally beginning
                                                 ACTION: Notice with comment period.                     your written comments before the close                 approximately 3 weeks after publication
                                                                                                         of the comment period to either of the                 of a document, at the headquarters of
                                                 SUMMARY: Section 1899(f) of the Social                                                                         the Centers for Medicare & Medicaid
                                                                                                         following addresses:
                                                 Security Act (of the Act), as added by                                                                         Services, 7500 Security Boulevard,
                                                 the Affordable Care Act (ACA)                           a. For delivery in Washington, DC—
                                                                                                                                                                Baltimore, Maryland 21244, Monday
                                                 authorizes the Secretary to waive certain                  Centers for Medicare & Medicaid
                                                                                                                                                                through Friday of each week from 8:30
                                                 fraud and abuse laws as necessary to                       Services, Department of Health and
                                                                                                                                                                a.m. to 4 p.m. To schedule an
                                                 carry out the provisions of section 1899                   Human Services, Room 445–G, Hubert
                                                                                                                                                                appointment to view public comments,
                                                 of the Act (the Medicare Shared Savings                    H. Humphrey Building, 200
                                                                                                                                                                phone 1–800–743–3951.
                                                 Program). This notice with comment                         Independence Avenue, SW.,
                                                 period describes and solicits public                       Washington, DC 20201.                               I. Medicare Shared Savings Program:
                                                 input regarding possible waivers of the                    (Because access to the interior of the              Background
                                                 application of the Physician Self-                      Hubert H. Humphrey Building is not                     A. Introduction
                                                 Referral Law, the Federal anti-kickback                 readily available to persons without
                                                                                                                                                                   This notice with comment period
                                                 statute, and certain civil monetary                     Federal government identification,
                                                 penalties (CMP) law provisions to                       commenters are encouraged to leave                     seeks public comment on proposed
                                                 specified financial arrangements                        their comments in the CMS drop slots                   waivers of sections 1128A(b)(1) and (2),
                                                 involving accountable care                              located in the main lobby of the                       1128B(b)(1) and (2), and 1877(a) of the
                                                 organizations (ACOs) under the                          building. A stamp-in clock is available                Social Security Act (of the Act) in the
                                                 Medicare Shared Savings Program. In                     for persons wishing to retain a proof of               specific circumstances described below,
                                                 addition, section 1115A(d)(1) of the Act,               filing by stamping in and retaining an                 as necessary to carry out the provisions
                                                 as added by section 3021 of the ACA,                    extra copy of the comments being filed.)               of section 1899 of the Act (as added by
                                                 authorizes the Secretary to waive the                                                                          section 3022 of the Patient Protection
                                                                                                         b. For delivery in Baltimore, MD—                      and Affordable Care Act (Pub. L. 111–
                                                 same fraud and abuse laws, among                           Centers for Medicare & Medicaid
                                                 others, as necessary solely for the                                                                            148), as amended by the Health Care
                                                                                                            Services, Department of Health and                  and Education Reconciliation Act of
                                                 purposes of carrying out the provisions                    Human Services, 7500 Security
                                                 of section 1115A of the Act with respect                                                                       2010 (Pub. L. 111–152) (collectively, the
                                                                                                            Boulevard, Baltimore, MD 21244–                     ‘‘Affordable Care Act’’)). We seek to
                                                 to the testing of certain innovative                       1850.
                                                 payment and service delivery models by                                                                         address application of these fraud and
                                                 the Center for Medicare and Medicaid                       If you intend to deliver your                       abuse laws to accountable care
                                                 Innovation. This notice with comment                    comments to the Baltimore address,                     organizations (ACOs 1) formed in
                                                 period also solicits public input                       please call telephone number (410) 786–                connection with the Medicare Shared
                                                 regarding that separate waiver authority.               7195 in advance to schedule your                       Savings Program 2 so that the laws do
                                                 DATES: To assure consideration, public                  arrival with one of our staff members.                 not unduly impede development of
                                                 comments must be delivered to the                          Comments mailed to the addresses                    beneficial ACOs, while also ensuring
                                                 address provided below by no later than                 indicated as appropriate for hand or                   that ACO arrangements are not misused
                                                 5 p.m. on June 6, 2011.                                 courier delivery may be delayed and                    for fraudulent or abusive purposes that
                                                                                                         received after the comment period.                     harm patients or Federal health care
                                                 ADDRESSES: In commenting, please refer
                                                                                                            Comments received by CMS will be                    programs. Elsewhere in this issue of the
                                                 to file code CMS–1345–NC2. Because of
                                                                                                         shared with OIG.                                       Federal Register, the Centers for
                                                 staff and resource limitations, we cannot
                                                                                                            For information on viewing public                   Medicare & Medicaid Services (CMS)
                                                 accept comments by facsimile (FAX)
                                                                                                         comments, see the beginning of the                     published a proposed rulemaking
                                                 transmission.
                                                    You may submit comments in one of                    SUPPLEMENTARY INFORMATION section.
srobinson on DSKHWCL6B1PROD with NOTICES2




                                                                                                                                                                   1 For purposes of this notice with comment
                                                 four ways (please choose only one of the                FOR FURTHER INFORMATION CONTACT: Neal
                                                                                                                                                                period, the terms ‘‘ACO,’’ ‘‘ACO participants,’’ and
                                                 ways listed):                                           Shah (410) 786–1167 or Troy Barsky                     ‘‘ACO providers/suppliers’’ have the meanings
                                                    • Electronically. You may submit                     (410) 786–8873, for general issues and                 ascribed to them in the Medicare Shared Savings
                                                 electronic comments on this regulation                  issues related to the Physician Self-                  Program proposed rule.
                                                                                                                                                                   2 We note that some ACOs may also operate
                                                 to http://www.regulations.gov. Follow                   Referral Law. James A. Cannatti III (202)
                                                                                                                                                                under arrangements with private payers. We
                                                 the ‘‘Submit a comment’’ instructions.                  619–0335, for general issues and issues                address waivers as they might relate to how ACOs
                                                    • By regular mail. You may mail                      related to the anti-kickback statute or                distribute payments from private payers in section
                                                 written comments to the following                       civil monetary penalties.                              III. of this notice with comment period.



                                            VerDate Mar<15>2010   20:05 Apr 06, 2011   Jkt 223001   PO 00000   Frm 00001   Fmt 4701   Sfmt 4703   E:\FR\FM\07APN2.SGM   07APN2
                                                 19656                           Federal Register / Vol. 76, No. 67 / Thursday, April 7, 2011 / Notices

                                                 setting forth proposed requirements for                 Medicare Shared Savings Program.                       Medicare program, ACOs must
                                                 ACOs under the Medicare Shared                          Because of the close nexus between the                 successfully meet quality and savings
                                                 Savings (hereinafter referred to as the                 final regulations governing the structure              requirements and certain other
                                                 Medicare Shared Savings Program                         and operation of ACOs under the                        conditions under the Medicare Shared
                                                 proposed rule). Section 3022 of the                     Medicare Shared Savings Program and                    Savings Program. ACO participants and
                                                 Affordable Care Act describes the                       the development of waivers necessary to                ACO providers/suppliers will continue
                                                 Medicare Shared Savings Program as a                    carry out the provisions of the Medicare               to receive fee-for-service payments, and
                                                 program to promote accountability for a                 Shared Savings Program, we may                         the ACO legal entity may choose how it
                                                 patient population, coordinate items                    consider comments submitted in                         distributes shared savings or allocates
                                                 and services under Parts A and B, and                   response to the Medicare Shared                        risk among its ACO participants and its
                                                 encourage investment in infrastructure                  Savings Program proposed rule and the                  ACO providers/suppliers.
                                                 and redesigned care processes for high                  provisions of the Medicare Shared
                                                 quality and efficient service delivery. As              Savings Program final rule when                        C. Waiver Authority Under Section
                                                 described in the Medicare Shared                        crafting waivers applicable to the                     1899(f) of the Act
                                                 Savings Program proposed rule, the                      Medicare Shared Savings Program. CMS                      Section 1899(f) of the Act provides
                                                 Medicare Shared Savings Program is                      may also consider comments received in                 that ‘‘[t]he Secretary may waive such
                                                 designed to achieve three goals: better                 response to this notice with comment                   requirements of sections 1128A and
                                                 health, better care, and lower cost.                    period when finalizing its regulations                 1128B and title XVIII of [the] Act as may
                                                 CMS’s expectation is that ACOs will                     for the Medicare Shared Savings                        be necessary to carry out the provisions
                                                 help foster a new approach to delivering                Program.                                               of [section 1899 of the Act].’’ This
                                                 care that reduces fragmented or                                                                                waiver authority is specific to the
                                                                                                         B. Section 1899 of the Social Security
                                                 unnecessary care and excessive costs for                                                                       Medicare Shared Savings Program, and
                                                                                                         Act
                                                 Medicare fee-for-service beneficiaries                                                                         does not address other similar
                                                 and other patients.                                        Section 1899 of the Act establishes                 integrated-care delivery models. We
                                                   The Physician Self-Referral Law, the                  the Medicare Shared Savings Program to                 may consider waivers (where authorized
                                                 anti-kickback statute, and the civil                    encourage the development of ACOs in                   under the Affordable Care Act),
                                                 monetary penalty (CMP) provision                        Medicare. The Medicare Shared Savings                  exceptions, or safe harbors, as
                                                 addressing hospital payments to                         Program is one of the first initiatives                applicable, for other types of ACOs,
                                                 physicians to reduce or limit services,                 that will be implemented under the                     integrated-care delivery models, or
                                                 discussed elsewhere in this notice with                 Affordable Care Act aimed specifically                 financial arrangements at a later date.
                                                 comment period, are important tools to                  at improving ‘‘value’’ in the Medicare                    We note that a waiver of a specific
                                                 protect patients and the Federal health                 program—that is, both higher quality                   fraud and abuse law is not needed for
                                                 care programs from fraud, improper                      and lower total expenditures for                       an arrangement to the extent that the
                                                 referral payments, unnecessary                          individual Medicare beneficiaries and                  arrangement: (1) Does not implicate the
                                                 utilization, underutilization, and other                the Medicare program. Section 1899 of                  specific fraud and abuse law; or (2)
                                                 harms. However, stakeholders have                       the Act encourages ACOs to promote                     implicates the law, but either fits within
                                                 expressed concern that the restrictions                 accountability for individual Medicare                 an existing exception or safe harbor, as
                                                 these laws place on certain financial                   beneficiaries and population health                    applicable, or does not otherwise violate
                                                 arrangements between physicians,                        management, improve the coordination                   the law. We note further that many
                                                 hospitals, and other individuals and                    of patient care under Parts A and B, and               exceptions and safe harbors already
                                                 entities may impede development of                      encourage investment in infrastructure                 exist that might apply to ACO
                                                 some of the innovative integrated-care                  and redesigned care processes for high                 arrangements, depending on the
                                                 models envisioned by the Medicare                       quality and efficient service delivery.                circumstances.
                                                 Shared Savings Program. Section 1899(f)                 The redesigned care processes
                                                 of the Act authorizes the Secretary to                  developed by ACOs should also                          D. Fraud and Abuse Laws—Background
                                                 waive these and certain other laws as                   improve care and lower costs for all                   1. Physician Self-Referral Law (Section
                                                 necessary to carry out the Medicare                     patients served by the ACO.
                                                                                                                                                                1877 of the Act)
                                                 Shared Savings Program.                                    As proposed in the Medicare Shared
                                                   In section II. of this notice with                    Savings Program proposed rule, ACOs                      Section 1877 of the Act (42 U.S.C.
                                                 comment period, we set forth proposals                  will enter into an agreement with the                  1395nn, the ‘‘Physician Self-Referral
                                                 for waivers of these fraud and abuse                    Secretary to participate in the Medicare               Law’’) is a civil statute that prohibits
                                                 laws that we believe, based on public                   Shared Savings Program for not less                    physicians from making referrals for
                                                 input and our own analysis, may be                      than a 3-year period under one of two                  Medicare ‘‘designated health services,’’
                                                 necessary to carry out the Medicare                     tracks. Under the first track, an ACO                  including hospital services, to entities
                                                 Shared Savings Program. We seek                         would have the opportunity to share in                 with which they or their immediate
                                                 public comment on these proposed                        actual savings during the first 2 years of             family members have a financial
                                                 waivers. In section III. of this notice                 the agreement. During the third year, the              relationship, unless an exception
                                                 with comment period, we solicit public                  ACOs would be in a ‘‘two-sided risk’’                  applies. These entities may not bill
                                                 input on the possibility of additional or               model in which they would be eligible                  Medicare for services rendered as a
                                                 different waivers, as well as input on                  to receive a higher potential shared                   result of a prohibited referral and
                                                 other related considerations.                           savings, but also would be required to                 section 1877(g)(1) of the Act states that
srobinson on DSKHWCL6B1PROD with NOTICES2




                                                   We expect to issue waivers applicable                 repay the Medicare program if costs for                no payment may be made for prohibited
                                                 to ACOs participating in the Medicare                   the ACO’s aligned beneficiaries exceed                 designated health service referrals. Civil
                                                 Shared Savings Program concurrently                     certain thresholds. Under the second                   monetary penalties also apply to any
                                                 with CMS’s publication of final                         track, ACOs would operate under the                    person who presents (or causes to be
                                                 regulations for the Medicare Shared                     two-sided risk model from the                          presented) a bill for services for which
                                                 Savings Program. The requirements of                    beginning of their agreement period.                   he or she knows or should know
                                                 the final regulations will bear on the                  Under either model, in order to share a                payment may not be made under section
                                                 scope of any waivers granted for the                    percentage of achieved savings with the                1877(g)(1) of the Act. For additional


                                            VerDate Mar<15>2010   20:05 Apr 06, 2011   Jkt 223001   PO 00000   Frm 00002   Fmt 4701   Sfmt 4703   E:\FR\FM\07APN2.SGM   07APN2
                                                                                 Federal Register / Vol. 76, No. 67 / Thursday, April 7, 2011 / Notices                                           19657

                                                 details, see section 1877(g)(3) of the Act.             Care Organizations and the Medicare                    proposed waivers described in this
                                                 Violations of the statute may also result               Shared Saving Program on November                      section.
                                                 in liability under the False Claims Act                 10, 2010,3 and held multiple listening                    To promote efficiency and ease of use,
                                                 (31 U.S.C. 3729–33).                                    sessions with stakeholders. CMS, OIG,                  it is our intent to promulgate waivers
                                                                                                         and the Federal Trade Commission held                  that will be consistent across the fraud
                                                 2. The Anti-Kickback Statute (Section
                                                                                                         a joint workshop on October 5, 2010,                   and abuse laws to the extent possible
                                                 1128B(b) of the Act)
                                                                                                         entitled ‘‘Workshop Regarding                          given the different scope and structure
                                                    Section 1128B(b) of the Act (42 U.S.C.               Accountable Care Organizations, and                    of the laws. We also intend to apply
                                                 1320a-7b(b), the ‘‘anti-kickback statute’’)             Implications Regarding Antitrust,                      these waivers uniformly to all qualified
                                                 provides criminal penalties for                         Physician Self-Referral, Anti-Kickback,                ACOs, ACO participants, and ACO
                                                 individuals or entities that knowingly                  and Civil Monetary Penalty (CMP)                       providers/suppliers participating in the
                                                 and willfully offer, pay, solicit, or                   Laws.’’ 4 We also received and reviewed                Medicare Shared Savings Program.
                                                 receive remuneration to induce or                       written public comments in connection
                                                 reward the referral of business                         with the workshop.5 Through these                      A. Threshold Qualification for Proposed
                                                 reimbursable under any of the Federal                   means, the DHHS has received public                    Waivers
                                                 health care programs, as defined in                     input representing a wide spectrum of                     In order to qualify for any of the
                                                 section 1128B(f) of the Act. The offense                views.                                                 proposed waivers described in section
                                                 is classified as a felony and is                           There appears to be a general                       II.B. of this notice with comment
                                                 punishable by fines of up to $25,000                    consensus among public stakeholders                    period—
                                                 and imprisonment for up to 5 years.                     that ACOs have the potential to change                    • ACOs would be required to enter
                                                 Violations of the anti-kickback statute                 health care delivery in a manner that                  into an agreement with CMS to
                                                 may also result in the imposition of                    improves patient care, and that some                   participate in the Medicare Shared
                                                 CMPs under section 1128A(a)(7) of the                   waivers of the fraud and abuse laws may                Savings Program; and
                                                 Act (42 U.S.C. 1320a-7a(a)(7)), program                 be necessary to facilitate their                          • ACOs, ACO participants, and ACO
                                                 exclusion under section 1128(b)(7) of                   operations. However, in general, no                    providers/suppliers would be required
                                                 the Act (42 U.S.C. 1320a-7(b)(7)), and                  clear consensus has emerged on the                     to comply with the agreement, section
                                                 liability under the False Claims Act (31                scope of the waivers necessary to carry                1899 of the Act, and its implementing
                                                 U.S.C. 3729–33). Certain practices that                 out the Medicare Shared Savings                        regulations (including, without
                                                 meet all of the conditions of a statutory               Program, perhaps because the relevant                  limitation, all transparency, reporting,
                                                 exception at section 1128B(b)(3) of the                 regulations have not yet been published.               and monitoring requirements).
                                                 Act or regulatory safe harbor at 42 CFR                 Moreover, it is possible that the
                                                 1001.952 are not subject to prosecution                 Medicare Shared Savings Program final                  B. Scope of the Proposed Waivers
                                                 or sanctions under the anti-kickback                    regulations will include additional                    1. Physician Self-Referral Law (Section
                                                 statute.                                                modifications in response to public                    1877(a) of the Act)
                                                                                                         comments to the proposed regulations.
                                                 3. Prohibition on Hospital Payments to                                                                           Under this proposal, the Secretary
                                                                                                         Therefore, our approach is to propose
                                                 Physicians To Induce Reduction or                                                                              would waive application of the
                                                                                                         and solicit comments on possible
                                                 Limitation of Services (Sections                                                                               provisions of section 1877(a) of the Act
                                                                                                         waivers in section II. of this notice with
                                                 1128A(b)(1) and (2) of the Act)                                                                                (42 U.S.C. 1395nn(a)) to distributions of
                                                                                                         comment period, and to solicit
                                                    Sections 1128A(b)(1) and (2) of the                  comments on different, potentially                     shared savings received by an ACO from
                                                 Act (the ‘‘Gainsharing CMP’’) apply to                  broader waivers, as well as additional                 CMS under the Medicare Shared
                                                 certain payment arrangements between                    waiver design considerations, in section               Savings Program: (1) To or among ACO
                                                 hospitals and physicians, including                     III. of this notice with comment period.               participants, ACO providers/suppliers,
                                                 arrangements commonly referred to as                    This approach will facilitate full and                 and individuals and entities that were
                                                 ‘‘gainsharing’’ arrangements. Under                     informed stakeholder input on, and                     ACO participants or ACO providers/
                                                 section 1128A(b)(1) of the Act, a                       government consideration of, these                     suppliers during the year in which the
                                                 hospital is prohibited from making a                    important, inter-connected issues.                     shared savings were earned by the ACO;
                                                 payment, directly or indirectly, to                                                                            or (2) for activities necessary for and
                                                 induce a physician to reduce or limit                   II. Medicare Shared Savings Program:                   directly related to the ACO′s
                                                                                                         Proposed Waivers                                       participation in and operations under
                                                 services to Medicare or Medicaid
                                                 beneficiaries under the physician’s                        We currently contemplate that,                      the Medicare Shared Savings Program.
                                                 direct care. Hospitals that make (and                   pursuant to the authority granted under                Our intent with this proposal would be
                                                 physicians who receive) such payments                   section 1899(f) of the Act, the Secretary              to protect financial relationships created
                                                 are liable for CMPs of up to $2,000 per                 would waive sections 1128A(b)(1) and                   by the distribution of shared savings
                                                 patient covered by the payments                         (2), 1128B(b)(1) and (2), and 1877(a) of               within the ACO, as well as financial
                                                 (sections 1128A(b)(1) and (2) of the Act).              the Act in the specific circumstances                  relationships created by a distribution of
                                                                                                         described below. The waivers would not                 shared savings outside the ACO, but
                                                 E. Summary of Public Input                              apply to any other provisions of Federal               only if the distribution outside the ACO
                                                 Opportunities                                           or State law. All financial arrangements               relates closely to the requirements for an
                                                   Since the passage of the Affordable                   not covered by a waiver would be                       ACO under section 1899 of the Act,
                                                 Care Act, the U.S. Department of Health                 required to comply with existing laws.                 including achieving the quality and
srobinson on DSKHWCL6B1PROD with NOTICES2




                                                 and Human Services (DHHS) has offered                   We invite the public to comment on the                 savings goals of the Medicare Shared
                                                 numerous opportunities for the public                                                                          Savings Program. We do not intend to
                                                 to provide input into the design and                      3 75FR 70165 (2010).                                 protect distributions of shared savings
                                                 operation of ACOs and waivers                             4 Information about the workshop is available on     dollars to referring physicians outside
                                                 necessary to carry out the provisions of                CMS’s Web site at http://www.cms.gov/center/           the ACO, unless those referring
                                                                                                         physician.asp.
                                                 the Medicare Shared Savings Program.                      5 The public comments are available on the FTC’s     physicians are being compensated
                                                 For example, CMS issued a Request for                   Web site at http://www.ftc.gov/os/comments/aco/        (using shared savings) for activities
                                                 Information Regarding Accountable                       index.shtm.                                            necessary for and directly related to the


                                            VerDate Mar<15>2010   20:05 Apr 06, 2011   Jkt 223001   PO 00000   Frm 00003   Fmt 4701   Sfmt 4703   E:\FR\FM\07APN2.SGM   07APN2
                                                 19658                           Federal Register / Vol. 76, No. 67 / Thursday, April 7, 2011 / Notices

                                                 ACO’s participation in and operations                   shared savings) for activities necessary                  ++ The payments are not made
                                                 under the Medicare Shared Savings                       for and directly related to the ACO’s                  knowingly to induce the physician to
                                                 Program. Other financial relationships                  participation in and operations under                  reduce or limit medically necessary
                                                 with referring physicians outside the                   the Medicare Shared Savings Program.                   items or services; and
                                                 ACO would need to meet an existing                      Other financial arrangements outside                      ++ The hospital and physician are
                                                 exception under the Physician Self-                     the ACO would need to fit in a safe                    ACO participants or ACO providers/
                                                 Referral Law (for example, the fair                     harbor or otherwise comply with the                    suppliers, or were ACO participants or
                                                 market value, personal services, or                     anti-kickback statute.                                 ACO providers/suppliers during the
                                                 indirect compensation exceptions).                         Our intent with the proposal under                  year in which the shared savings were
                                                   This proposed waiver would be                         the second bulleted paragraph would be                 earned by the ACO.
                                                 limited to distributions of shared                      to protect under the anti-kickback                        • Any financial relationship between
                                                 savings; all other financial relationships              statute those financial relationships                  or among the ACO, its ACO
                                                 involving physicians (or their                          between and among the ACO, its ACO                     participants, and its ACO providers/
                                                 immediate family members) or entities                   participants, and its ACO providers/                   suppliers necessary for and directly
                                                 participating in the Medicare Shared                    suppliers that relate closely to the                   related to the ACO’s participation in
                                                 Savings Program that implicate the                      ACO’s operations under section 1899 of                 and operations under the Medicare
                                                 Physician Self-Referral Law would still                 the Act, but only if the relationship                  Shared Savings Program that implicates
                                                 need to satisfy an existing exception.                  implicates the Physician Self-Referral                 the Physician Self-Referral Law and
                                                                                                         Law and fits squarely in an exception.                 fully complies with an exception at 42
                                                 2. The Anti-Kickback Statute (Sections
                                                                                                         Ordinarily, compliance with an                         CFR 411.355 through 411.357.
                                                 1128B(b)(1) and (2) of the Act)
                                                                                                         exception to the Physician Self-Referral
                                                    Under this proposal, the Secretary                   Law does not operate to immunize                       C. Duration of Waivers
                                                 would waive application of the                          conduct under the anti-kickback statute,               1. Shared Savings Waivers
                                                 provisions of sections 1128B(b)(1) and                  and arrangements that comply with the
                                                 (2) of the Act (42 U.S.C. 1320a–7b(b)(1)–               Physician Self-Referral Law are still                     The waivers related to the distribution
                                                 (2)) with respect to the following two                  subject to scrutiny under the anti-                    of shared savings would apply to the
                                                 scenarios:                                              kickback statute. Here, however, in light              distributions of shared savings earned
                                                    • Distributions of shared savings                    of the specific safeguards proposed to be              by the ACO during the term of
                                                 received by an ACO from CMS under                       incorporated in the Medicare Shared                    agreement with CMS to participate in
                                                 the Medicare Shared Savings Program:                    Savings Program, the authority under                   the Medicare Shared Savings Program,
                                                 (1) To or among ACO participants, ACO                   section 1899(f) of the Act for the                     even if the actual distributions occur
                                                 providers/suppliers, and individuals                    Secretary to waive the anti-kickback                   after the expiration of the agreement.
                                                 and entities that were ACO participants                 statute as necessary to carry out section              2. Anti-Kickback Statute and
                                                 or ACO providers/suppliers during the                   1899 of the Act, and our desire to                     Gainsharing CMP Waivers for
                                                 year in which the shared savings were                   minimize burdens on entities                           Arrangements in Compliance With a
                                                 earned by the ACO; or (2) for activities                establishing ACOs under section 1899 of                Physician Self-Referral Law Exception
                                                 necessary for and directly related to the               the Act, we are proposing a limited
                                                 ACO’s participation in and operations                   exception to the general rule.                           The anti-kickback statute and
                                                 under the Medicare Shared Savings                          Failure to qualify for one of the                   Gainsharing CMP waivers described
                                                 Program.                                                proposed waivers under the anti-                       above in sections II.B.2. of this notice
                                                    • Any financial relationship between                 kickback statute would not mean that an                with comment period (related to the
                                                 or among the ACO, ACO participants,                     arrangement is automatically illegal                   anti-kickback statute) and II.B.3. of this
                                                 and ACO providers/suppliers necessary                   under the anti-kickback statute. To the                notice with comment period (relating to
                                                 for and directly related to the ACO’s                   extent that the anti-kickback statute is               the Gainsharing CMP) for arrangements
                                                 participation in and operations under                   implicated by a financial arrangement                  that comply with an existing Physician
                                                 the Medicare Shared Savings Program                     that is not subject to a waiver, the                   Self-Referral Law exception would
                                                 that implicates the Physician Self-                     financial arrangement would need to                    apply during the term of the ACO’s
                                                 Referral Law and fully complies with an                 comply with the law. We note that the                  agreement with CMS to participate in
                                                 exception at 42 CFR 411.355 through                     same financial arrangement might                       the Medicare Shared Savings Program.
                                                 411.357.                                                violate the Physician Self-Referral Law
                                                    As with the proposed waiver of the                                                                          III. Medicare Shared Savings Program:
                                                                                                         and would need to be analyzed for                      Solicitation of Public Comments on
                                                 Physician Self-Referral Law described                   compliance with that law.
                                                 previously, our intent with the proposal                                                                       Additional Waiver Design
                                                 under the first bulleted paragraph                      3. Prohibition on Hospital Payments to                 Considerations
                                                 would be to protect financial                           Physicians To Induce Reduction or                         We have proposed waivers in this
                                                 arrangements created by the distribution                Limitation of Services (Sections                       notice with comment period that
                                                 of shared savings within the ACO, as                    1128A(b)(1) and (2) of the Act)                        address stakeholder input with respect
                                                 well as financial arrangements created                     Under this proposal, the Secretary                  to shared savings distributions and
                                                 by a distribution of shared savings                     would waive application of the                         treatment under the anti-kickback
                                                 outside the ACO, but only if the                        provisions of sections 1128A(b)(1) and                 statute and Gainsharing CMP for certain
                                                 distribution outside the ACO is for                     (2) of the Act (42 U.S.C. 1320a–7a(b)(1)               arrangements that comply with a
srobinson on DSKHWCL6B1PROD with NOTICES2




                                                 activities necessary for and directly                   and (2)) with respect to the following                 Physician Self-Referral Law exception.
                                                 related to the ACO’s participation in                   two scenarios:                                         We recognize that the proposed waivers
                                                 and operations under the Medicare                          • Distributions of shared savings                   described in section II. of this notice
                                                 Shared Savings Program. We do not                       received by an ACO from CMS under                      with comment period do not cover all
                                                 intend to protect distributions of shared               the Medicare Shared Savings Program in                 of the possible financial arrangements
                                                 savings dollars to referral sources                     circumstances where the distributions                  involved with setting up and operating
                                                 outside the ACO, unless those referral                  are made from a hospital to a physician,               an ACO. Some of those arrangements
                                                 sources are being compensated (using                    provided that—                                         may not need additional protection


                                            VerDate Mar<15>2010   20:05 Apr 06, 2011   Jkt 223001   PO 00000   Frm 00004   Fmt 4701   Sfmt 4703   E:\FR\FM\07APN2.SGM   07APN2
                                                                                 Federal Register / Vol. 76, No. 67 / Thursday, April 7, 2011 / Notices                                           19659

                                                 under the fraud and abuse laws (for                     the Medicare Shared Savings Program                    establishing the ACO; or (2) necessary
                                                 example, they might fit in existing                     cost and quality goals. For purposes of                for and directly related to achieving the
                                                 exceptions and safe harbors or might not                this paragraph, we are interested in                   integrated care, cost savings, and quality
                                                 implicate the laws), while others may                   comments addressing remuneration in                    goals of the Medicare Shared Savings
                                                 need additional protection.                             the form of payments used to finance                   Program. We seek particular input on
                                                 Accordingly, we are soliciting                          actual investment or startup expenses,                 how this could be done while
                                                 comments regarding waivers for                          as well as nonmonetary benefits                        minimizing the potential for fraud and
                                                 financial arrangements that would be                    transferred for the purpose of                         abuse (including whether these
                                                 necessary to carry out the provisions of                establishing the ACO. We also seek                     financial arrangements should be
                                                 the Medicare Shared Savings Program.                    public comment on the exact type of                    required to be commercially reasonable
                                                 When commenting in response to this                     expenses and corresponding financial                   and reflect fair market value).
                                                 notice with comment period, please                      arrangements that might be covered by                     • Distributions of shared savings or
                                                 explain how any favored waivers,                        a waiver for arrangements involving                    similar payments received from private
                                                 modifications, or additions would be                    initial investments or startup expenses,               payers. We are interested in comments
                                                 necessary to carry out the provisions of                and the period of time during which an                 addressing whether a waiver is
                                                 the Medicare Shared Savings Program                     investment or payment would be                         necessary to address distributions of
                                                 and why the financial arrangements at                   considered an ‘‘initial’’ investment or                shared savings payments received by
                                                 issue would not qualify for existing safe               ‘‘startup’’ expenditure. We also seek                  the ACO from a private payer. We are
                                                 harbors or exceptions.                                  comments on any safeguards that could                  seeking comments on this topic because
                                                    We have received significant public                  be incorporated to protect patients or                 ACOs under the Medicare Shared
                                                 input suggesting that we consider                       Federal health care programs from fraud                Savings Program may also operate under
                                                 promulgating waivers for ACOs in the                    and abuse. For example, we seek                        private payer contracts. Some
                                                 Medicare Shared Savings Program that                    comments on whether protected                          stakeholders have expressed concern
                                                 would apply more broadly than our                       remuneration should be required to be                  that payments under private payer
                                                 proposals in section II. of this notice                 commercially reasonable.                               contracts might implicate the fraud and
                                                 with comment period. Accordingly, we                       • Arrangements between or among                     abuse laws where the payments flow
                                                 are soliciting comments on the topics                   ACO participants and/or ACO                            between parties that also have referral
                                                 that follow. Our current view is that we                providers/suppliers related to ongoing                 relationships with respect to Federal
                                                 would grant waivers that would apply                    operations of the ACO and achieving                    health care program patients. We solicit
                                                 uniformly to all ACOs, ACO                              ACO goals. We are interested in                        comments on the advisability of a
                                                 participants, and ACO providers/                        comments addressing whether the                        waiver in this context, the scope and
                                                 suppliers participating in the Medicare                 Physician Self-Referral Law, anti-                     design of such a waiver, and whether
                                                 Shared Savings Program.                                 kickback statute, or Gainsharing CMP                   any specific conditions are needed or
                                                    Our goal is ultimately to use our                    should be waived for financial                         should be imposed to prevent fraud and
                                                 waiver authority to support beneficial                  arrangements (other than those created                 abuse.
                                                 ACO development under the Medicare                      by distributions of shared savings, as                    • Other financial arrangements for
                                                 Shared Savings Program, while still                     described in section II. of this notice                which a waiver would be necessary. We
                                                 protecting patients and programs from                   with comment period) between or                        are interested in comments addressing
                                                 harms caused by fraud and abuse.                        among ACO participants and/or ACO                      whether there are financial
                                                 Striking this balance is both critically                providers/suppliers that are: (1)                      arrangements not addressed in the
                                                 important and particularly challenging                  Necessary for and directly related to                  above topics for which waivers of the
                                                 in the context of the Medicare Shared                   operating the ACO; or (2) necessary for                Physician Self-Referral Law, anti-
                                                 Savings Program. This is because                        and directly related to achieving the                  kickback statute, or Gainsharing CMP
                                                 providers and suppliers will continue to                integrated care, cost savings, and quality             should apply. Specifically, we seek
                                                 be paid on a fee-for-service basis, even                goals of the Medicare Shared Savings                   comments describing specific financial
                                                 under the two-sided risk model. We                      Program. If such a waiver is favored, we               arrangements (or combinations of
                                                 welcome comments on how best to                         request public comments on the types of                arrangements), why they would be
                                                 balance these interests.                                financial arrangements that should be                  necessary for and directly related to the
                                                    The topics on which we seek                          covered by a waiver and whether these                  operations of ACOs under the Medicare
                                                 comment are described in the                            financial arrangements should be                       Shared Savings Program, why no
                                                 paragraphs that follow. We note that                    required to be commercially reasonable                 current exception or safe harbor would
                                                 certain comments will be relevant to                    and reflect fair market value.                         apply, and any applicable conditions or
                                                 multiple topics; we will consider                          • Arrangements between the ACO, its                 safeguards that should apply if a waiver
                                                 comments even when they combine                         ACO participants, and/or its ACO                       were to be granted.
                                                 several of the following topics:                        providers/suppliers and outside                           • Duration of waivers. We are
                                                    • Arrangements related to                            individuals or entities. We are interested             interested in views on the duration of
                                                 establishing the ACO. We are interested                 in comments addressing whether the                     any waivers. Except as noted in section
                                                 in comments addressing whether it is                    Physician Self-Referral Law, anti-                     II. of this notice with comment period
                                                 necessary to waive the Physician Self-                  kickback statute, or Gainsharing CMP                   with respect to shared savings
                                                 Referral Law, anti-kickback statute, or                 should be waived for financial                         distributions, we currently expect that
                                                 Gainsharing CMP for remuneration,                       arrangements (other than those created                 waivers would apply during the term of
srobinson on DSKHWCL6B1PROD with NOTICES2




                                                 directly related to: (1) Forming the ACO;               by distributions of shared savings, as                 an ACO’s agreement with CMS under
                                                 (2) implementing the governance and                     described in section II. of this notice                the Medicare Shared Savings Program,
                                                 administrative requirements applicable                  with comment period) between the                       and that waivers would cease to apply
                                                 to the ACO under the final regulations                  ACO, its ACO participants, and/or its                  if the agreement is terminated before the
                                                 for the Medicare Shared Savings                         ACO providers/suppliers and entities or                end of the term. We solicit comments on
                                                 Program; or (3) building technological or               individuals outside the ACO, where the                 this or other approaches.
                                                 administrative capacity (including                      financial arrangements are: (1)                           • Additional safeguards. We seek
                                                 providing training) needed to achieve                   Necessary for and directly related to                  comments addressing any additional


                                            VerDate Mar<15>2010   20:05 Apr 06, 2011   Jkt 223001   PO 00000   Frm 00005   Fmt 4701   Sfmt 4703   E:\FR\FM\07APN2.SGM   07APN2
                                                 19660                           Federal Register / Vol. 76, No. 67 / Thursday, April 7, 2011 / Notices

                                                 safeguards that might be necessary for                  additional or different fraud and abuse                  • Timing of waivers. We seek
                                                 and effective to protect patients and the               waivers might be appropriate for ACOs                  comments addressing whether final
                                                 Federal health care programs. We have                   participating in the two-sided risk                    waivers should be published
                                                 premised our proposed waivers on the                    model. We are particularly interested in               contemporaneously with, in advance of,
                                                 fact that ACOs, ACO participants, and                   comments on the relative risk of                       or soon after final rule regarding the
                                                 ACO providers/suppliers under the                       overutilization or increased program                   Medicare Shared Savings Program.
                                                 Medicare Shared Savings Program will                    costs (and, conversely, the risk of
                                                 be required to comply with all                          underutilization or stinting) arising from             IV. Center for Medicare and Medicaid
                                                 applicable rules and regulations                        the downside risk feature of the two                   Innovation: Solicitation of Public
                                                 governing the program, including, for                   tracks being proposed for the Medicare                 Comments on Waiver Design
                                                 example, all monitoring, transparency,                  Shared Savings Program and whether                     Considerations
                                                 marketing, and quality requirements.                    the relative risk should impact the scope                 Section 1115A of the Act establishes
                                                 We are interested in public comments                    of the waiver. In addition, we seek                    within CMS the Center for Medicare and
                                                 addressing the sufficiency of these                     comments on whether different waivers                  Medicaid Innovation (Innovation
                                                 protections for purposes of fraud and                   would be necessary for and appropriate                 Center) ‘‘to test innovative payment and
                                                 abuse law waivers.                                      in circumstances where ACO                             service delivery models to reduce
                                                    • Scope of proposed waivers in                       participants and/or ACO providers/                     program expenditures under the
                                                 section II. of this notice with comment                 suppliers may individually bear risk for               applicable titles while preserving or
                                                 period. We seek comments addressing                     the cost of items and services furnished               enhancing the quality of care furnished
                                                 the scope of the waivers described in                   to ACO beneficiaries. For example, we                  to individuals under such titles.’’ In
                                                 section II. of this notice with comment                 are interested in whether such waivers
                                                 period. In particular, we are interested                                                                       selecting models, the Secretary is
                                                                                                         should extend only to compensation                     directed to prefer models that also
                                                 in comments as to whether the proposed                  that places referring parties at risk for
                                                 waivers are too broad or too narrow,                                                                           improve coordination, quality, and
                                                                                                         achieving the quality and performance                  efficiency of health care services
                                                 and, if so, how such over- or under-                    metrics under the Medicare Shared
                                                 breadth might best be addressed. In                                                                            furnished to Medicare, Medicaid, and
                                                                                                         Savings Program. Similarly, we are                     dually eligible individuals. In relevant
                                                 addition, in section II.B. of this notice               interested in comments addressing
                                                 with comment period, we propose that                                                                           part for purposes of this notice, section
                                                                                                         whether any additional financial                       1115A(d)(1) of the Act provides that the
                                                 the Physician Self-Referral Law, anti-                  arrangements arising in connection with
                                                 kickback statute, and Gainsharing CMP                                                                          Secretary ‘‘may waive such requirements
                                                                                                         the downside risk (for example, escrow                 of Title XI and XVIII . . . as may be
                                                 be waived in circumstances where                        accounts, surety bonds, and letters of
                                                 certain activities are ‘‘necessary for and                                                                     necessary solely for purposes of carrying
                                                                                                         credit) necessitate waiver protection                  out this section with respect to testing
                                                 directly related to’’ the ACO’s                         and, if so, under what circumstances.
                                                 participation in and operations under                                                                          models described in subsection (b).’’
                                                                                                            • Use of existing exception and safe                This waiver authority is specific to
                                                 the Medicare Shared Savings Program.
                                                                                                         harbor for electronic health records                   activities carried out under section
                                                 We seek comments on this standard, as
                                                                                                         arrangements. We are interested in                     1115A of the Act and, like the waiver
                                                 well as comments recommending other
                                                                                                         comments addressing whether we                         authority under section 1899(f) of the
                                                 standards that might be used to ensure
                                                                                                         should waive the Physician Self-Referral               Act, does not address other
                                                 that a waiver of the fraud and abuse
                                                 laws is limited to ACO purposes. We are                 Law and anti-kickback statute for ACO                  arrangements. At this time, we are
                                                 interested in examples of how this                      arrangements that satisfy the existing                 interested in public comments on the
                                                 standard might apply to specific                        exception and safe harbor for electronic               separate waiver authority at section
                                                 arrangements contemplated by ACOs,                      health records arrangements (42 CFR                    1115A(d)(1) of the Act and how we
                                                 either to include or exclude the                        411.357(w) and 42 CFR 1001.952(y)),                    might best exercise it to address
                                                 arrangements from the protection of a                   but that are expected to occur after the               demonstrations and pilot programs
                                                 waiver. For example, we do not intend                   sunset date of 2013 currently applicable               under section 1115A of the Act.
                                                 to extend waiver protections to ACO                     to that exception and safe harbor.
                                                                                                            • Beneficiary inducements. We seek                  V. Response to Comments
                                                 participants or ACO providers/suppliers
                                                 that have independent financial                         comments addressing whether and                          Because of the large number of public
                                                 arrangements with potential referral                    under what circumstances it would be                   comments we normally receive on
                                                 sources that are unrelated to the ACO,                  necessary for the Secretary to waive, in               Federal Register documents, we are not
                                                 its operations, or the Medicare Shared                  whole or in part, the provisions of                    able to acknowledge or respond to them
                                                 Savings Program.                                        section 1128A(a)(5) of the Act (the                    individually. We will consider all
                                                    • Two-sided risk model. The                          prohibition on inducements offered to                  comments we receive by the date and
                                                 Medicare Shared Savings Program                         Medicare and Medicaid beneficiaries) in                time specified in the DATES section of
                                                 proposed rule contemplates that all                     connection with the Medicare Shared                    this document.
                                                 ACOs will eventually participate in a                   Savings Program. Specifically, we seek
                                                 two-sided risk model pursuant to which                  comments describing arrangements (or                    Authority: Sections 1899 and 1115A of the
                                                 the ACO would assume financial risk if                  combinations of arrangements) that                     Act.
                                                 costs for its aligned beneficiaries exceed              would require protection, why those                      Dated: March 24, 2011.
                                                 certain thresholds. As currently                        arrangements would be necessary to                     Donald M. Berwick,
srobinson on DSKHWCL6B1PROD with NOTICES2




                                                 proposed, CMS would not require the                     carry out the provisions of the Medicare               Administrator, Centers for Medicare &
                                                 ACO to put its ACO participants or ACO                  Shared Savings Program, and any                        Medicaid Services.
                                                 providers/suppliers at risk for cost                    applicable conditions or safeguards that                 Dated: March 28, 2011.
                                                 overages. However, CMS would permit                     should apply if a waiver were to be
                                                                                                                                                                Daniel R. Levinson,
                                                 ACOs to place some or all ACO                           granted to ensure that beneficiaries are
                                                 participants and/or ACO providers/                      not inappropriately induced to obtain                  Inspector General.
                                                 suppliers at risk. We are interested in                 services from ACO participants or ACO                  [FR Doc. 2011–7884 Filed 3–31–11; 11:15 am]
                                                 comments addressing whether                             providers/suppliers.                                   BILLING CODE 4120–01–P; 4152–01–P




                                            VerDate Mar<15>2010   20:05 Apr 06, 2011   Jkt 223001   PO 00000   Frm 00006   Fmt 4701   Sfmt 9990   E:\FR\FM\07APN2.SGM   07APN2
